          ",




 Department of Health and Human Servces
         OFFICE OF
    INSPECTOR GENERAL




COMMUNITY MENTAL HEALTH CENTERS
     AND HOMELESS PERSONS




               1' .
                S'EVICls


                           JU   GffBS BROWN
                           Inspector General
                              AUGUST 1996
               "d3a
                              OEI-07-95-0061
                        OFFICE OF INSPECTOR GENERA

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Office of Audit Services , the
Office of Investigations ,   and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.



                              OFFICE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the Department.

                              OFFICE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerability,
and effectiveness of departmental programs. The report was prepared in the Kansas City
regional offce under the direction of Jim Wolf, Regional Inspector General. Project staff
include:

Kaas City                                                      Headquarers

Dennis Tharp, Project Leader                                   Wiliam M. Krushat , Branch Chief

Tim Dold , Team Leader                                         Alan Levine , Program Specialist

Perry Seaton , Team Leader

Linda Paddock , Program Assistant




To obta a copy     of thi report    ca the Kaas City regional offce at (816) 4263697.
              EXECUTIVE SUMMARY

PUROSE
To determine the extent that community mental health centers serve homeless
persons.

BACKGROUN
The homeless population is a heterogenous group of men , women and children who
have a variety of health care problems , including a high incidence of mental ilness and
substance abuse/alcohol disorders.

Community Mental Health Centers (CMHCs) are a major component of health care
servces for people who are economically  disenfranchised and homeJess. The centers
primary objective is providing mental health servces to persons with mental ilness or
emotional disturbances. They provide a broad range of servces , including individual
and group counseling, psychosocial rehabilitation , therapeutic education , life skils
training, day programs , and substance abuse counseling and treatment. CMHCs also
tyically provide case management , medication management , and arrangements for
residential servces.

This report is based on a mail survey of 50 community mental heath centers and 86
homeless shelters. Fifeen of the 50 centers had received special grant funding to
specifically engage in outreach servces for homeless persons with mental ilness (e.
the Projects for Assistance in Transition from Homelessness (PATH) grant program or
the Access to Community Care and Effective Servces and Supports (ACCESS) grant
program. ) We also conducted on-site visits with two CMHC mental health care
managers and five directors of homeless shelters to supplement information from the
surveys.

This study was requested by the Assistant Secretary for Planning and Evaluation as
part of a broader effort to look at mainstream Federal programs addressing homeless
persons.

FININGS
Communty Mental Health Centers Perform Outreach to Homeles;         Persons

All centers with PATH and/or ACCESS grants report that they conduct outreach by
sending staff or volunteers off-site to areas where homeless persons with mental ilness
may congregate. However, only 50 percent of those centers which did not receive any
PATH or ACCESS funding perform outreach.
Nearly all of the centers ' staffs that conduct outreach go to emergency homeless
shelters. Outreach staff visit and provide referrals at transitional shelters , street
locations , soup kitchens , drop-in centers , parks , depots , and campgrounds.
Approximately one- fourth also may go to county jails , public libraries , river banks
psychiatric hospitals , churches , restaurants , and shopping malls.


Centers Receive Referral from a Varety of Sources



Although 21 percent of the centers ' homeless clients with mental ilnesses are self-
referrals , the majority of homeless clients are referred from emergency shelters
hospital emergency rooms , police , state psychiatric hbspitals , and the jail/court system.
Only 17 percent (15 of 86) of the homeless shelters report that they do not refer their
clients to the CMHCs for mental health servces.

A Majority of Shelters Rate their Relationship with Communty Menta Health
Centers as Positive; Some Problems Do Emerge, However

Over 69 percent of the homeless shelters rate their relationship with the local mental
health center as either satisfactory or excellent. However , 20 percent believe that the
quality of mental health servces at the centers is unsatisfactory or poor. They cited:
weakness in providing immediate crisis intervention servces; not enough individual
therapy; shortage or lack of assignment of case managers and therapists; and clients
being given standard prescribed medication without really being listened to.

Centers Provide Referral for Other Health      Cae and Social Servces

Most centers report providing referrals for other health care servces such as substance
abuse servces , inpatient psychiatric servces , medical outpatient servces , and referrals
for medical assistance benefits/entitlements and programs such as Aid to Families with
Dependent Children and Food Stamps.

Centers Cite Barers in Providig Servces to Homeless People, Especialy Difculties
in Contiuity of Cae and Avaiabilty of Servces in the Communty

Community mental health centers report that they face barriers in tryng to serve
homeless persons , especially since many of those persons with mental ilness are also
substance abusers. Over one- half of the homeless shelters also responded that clients
have problems accessing center services. Barriers include the clients ' inability or
unwillngness to follow through on a plan of care and shortage of necessary servces
for homeless persons with mental ilness.

OPPORTUIE FOR IMROVEMENT
Overall , community mental health centers and homeless shelters seem to be
coordinating their efforts to help homeless people. However , there are stil
opportunities for improvement. We recognize that resources are limited and that not
all services that are needed can be provided within current funding levels. We offer
the following suggestions to centers wishing to re-examine and prioritize their
programs for serving homeless persons with mental ilness.

Improve Communication and Inormation         Sharg with Homeless Shelters
Communication and information sharing could take the form of periodic meetings to
discuss problem areas , beneficial activities , statistical reporting techniques , and the
joint monitoring of homeless persons with mental ilness. Centers which do not
engage in outreach activities could do so; those centers which already do could
develop even more assertive outreach programs. Also , community mental health
centers could work with homeless hotlines in their service area to provide urgent care
or crisis intervention for those needing immediate attention.

At the Federal level , the Substance Abuse and Mental Health Servces Administration
(SAMHSA) could be instrumental in supporting further research on the topic of
homeless persons with mental ilness and their difficulties in obtaining appropriate
mental health care and counseling.



Offer Comprehensive Servces to Address Indidual         Needs

Counseling servces could be offered to specifically address individual needs. These
could include: substance abuse counseling (since many clients have a dual- diagnosis of
mental ilness and substance abuse) and physical and/or sexual abuse counseling.
Centers could provide more intensive case management to members of this
population. CMHCs could also work with housing programs to develop a variety of
housing options.

AGENCY COMMNT

We received formal comments from the Administrator of SAMHSA and the Assistant
Secretary for Planning and Evaluation. Both agreed with the findings in the report.
The Administrator of SAMHSA emphasized the need to work more closely with
shelters and housing providers and for more research on homelessness and mental
ilness. Copies of the full text of their comments are included in Appendix A.
                                                                                        . .. . . . . . . .
                                                                             . . . . . . . . . . .. .. .. .. ......
                                                                                                              . .. .. .. .. ..
                                                                                                                            .. .. ... ..
                                                                                                ..................................     . .. ... ... ..........
                                                                                                                                                             .. ... ....     .. . . . ... .
                                                                                                                                                                       ... ... ... .. .. .. .. .. . . . . .




                                                                                  TABLE OF CONTENTS
                                                                                                                                                                                                                    PAGE
 EXECU SUMY
 INODUCTON. .                                                                                                                                                                                 . . . . . . . . . . . . 1€
 FININGS. .                                                                                                                                                                     . . . . . . . . . . . . . . . . . 4€
         Outreach. . . . . . . . . . . . . . . . . . . . .

        Screening Protocols. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4€

        Referral Sources.                                                                                                                                                                              . . . . .. . . . 5€
        Relationships with Shelters. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5€

        Health Care and Social Servce Referrals. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6€

        Servce Barriers. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7€

OPPORTU FOR IMROVEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8€
AGENCY COMMNT.                                                                                       .                                                                                                        . . . . . . . 9€
APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                       . . . . . . . . . . . . . . . . . . A-

                          INTRODUCTION

PUROSE
To determine the extent that community mental health centers serve homeless
persons.

BACKGROUN
The homeless population is a heterogenous group of men , women and children. They
include long term street dwellers , residents of homeless shelters and temporary living
quarters , the economically disadvantaged , single men and women , families with
children , as well as runaway and castoff youths. Homeless individuals have a variety of
health care problems , including a high incidence of mental ilness and substance
use/alcohol disorders.

Community Mental Health Centers (CMHCs) are a major component of health care
servces for people who are economically disenfranchised and homeless. The centers
primary objective is providing mental health servces to persons with mental ilness and
persons with emotional disturbances. They provide a broad range of mental health
servces , including individual and group counseling, psychosocial rehabilitation
therapeutic education , life skills training, day programs , and substance abuse
counseling and treatment. CMHCs also typically provide case management
medication management, and arrangements for residential servces.

Public Law 102- 321 , the Alcohol , Drug Abuse and Mental Health Administration
Reorganization Act , mandates a vigorous Federal leadership role in mental health
servces delivery and policy development. The Act significantly increases the attention
and resources devoted to the mental health servce needs of children and adults. The
Center for Mental Health Servces (CMHS) in the Substance Abuse and Mental
Health Servces Administration (SAMHSA) works closely with other Federal agencies
whose programs and policies affect the lives of persons with mental ilness. The
CMHS also works closely with State and local governments and the private sector to
assure continuity, integration of servces , and access to comprehensive systems of care.

The CMHS provides national leadership to (I) ensure the application of scientifically
established findings and practice-based knowledge in the prevention and treatment of
mental disorders; (2) improve access , reduce barriers , and promote high quality
effective programs and servces for people with , or at risk for these disorders , as well
as for their families and communities; and (3) promote the rehabilitation of people
with mental disorders. It also composes and retains a listing of all community mental
health centers. While having no direct administrative control over mental health
center servces , the agency compiles statistical information on the facility location
telephone numbers , servces available, and years of operation of all centers
nationwide.
The Stewart B. McKinney Homeless Assistance Amendment Act of 1990 authorized a
new Federal grant program to deal with the needs of people who are homeless and
have serious mental ilnesses. The program-- known as Projects for Assistance in
Transition from Homelessness (PATH) -- funds community- based outreach , mental
health , substance abuse , case management and other support servces , as well as a
limited set of housing services. Each year , the PATH program distributes about $30
milion through formula grants to each State and U.S. territory to provide services to
people with serious mental ilnesses , including those with co-occurring substance use
disorders who are homeless or at risk of becoming homeless. In many States , PATH
funds are the only Federal dollars available for outreach services within the mental
health system.


Beginning in fiscal year 1993 , the Department of Health and Human Servces (in
collaboration with the Departments of Housing and Urban Development , Labor
Education , and Veterans Affairs) provided Access to Community Care and Effective
Servces and Supports (ACCESS) grants to nine States. This innovative
interdepartmental demonstration project integrates housing, treatment and support
servces for homeless persons with mental ilness. The ACCESS initiative flows
directly from the work of the Federal Task Force on Homelessness and Severe Mental
Illness and is founded on the assumption that the integration of fragmented servces
wil substantially contribute to ending homelessness among persons with severe mental
ilness.

METHODOLOGY

The inspection focused on the extent of outreach and servces provided by community€
mental health centers to the population of homeless persons with mental ilness.
There are approximately 3 000 community mental health center providers nationwide.
However, we focused on 569 centers that had previously received Federally funded
construction grants , a subset of the " 1995 Mental Health Directory " issued by the
Survey and Analysis Branch of the Center for Mental Health Servces. Since Federally
grant-constructed centers constitute only a fraction of community mental health
centers nationally, our findings would not be considered representative of all centers€
only those which received Federal funding.€

We purposefully excluded mental health centers located in cities with populations of
   000 or less because most rural centers do not have homeless shelters in their
service area. From this revised universe , we selected a random sample of 75 centers.
In addition , we also selected two - three homeless shelters in the 75 cities in which the
community mental health centers are located.

We mailed surveys to 75 CMHCs , and received 50 responses. In addition , we sent
surveys to 180 homeless shelter directors and received 86 completed surveys. Due to
incomplete response rates , we did not always receive a returned survey from centers
and shelters in the same area. The survey document did not make a distinction€
between access to mental health servces by homeless persons with serious mental€
ilnesses and access by those homeless persons with mental health needs but who do
not have a serious mental ilness.

We received surveys from:
            15 CMHCs with PATH and/or ACCESS grants.
            11 CMHCs that are located in cities receiving PATH or ACCESS grants.
            24 CMHCs which had no PATH or ACCESS funding.

The inspection team analyzed the responses to the survey questions. These responses
were quantified to determine such issues as the number of mental health centers that
provide outreach servces , the quantity and type of referrals for mental health care
treatment and counseling for homeless persons with mental ilness ,and the extent of
barriers that prevent access to servces. We also conducted on-site visits with two
CMHC mental health care managers and five directors of homeless shelters to
supplement information from the surveys.

The characteristic center in our sample was a moderate to large-sized multi-servce
center established in 1971 with a budget of $8. 8 milion , and seeing an average of
nearly 5 000 undupIicated persons/users annually. There were about 224 homeless
persons with mental ilness served annually out of a self-reported (estimated) 2 000
homeless persons in each servce area. While homeless persons with mental ilness€
comprise about 4- 5 percent of the centers ' average user population , approximately
only I percent of the average center                  s annual budget goes toward operating costs for
servng homeless persons and conducting homeless outreach.

This study was requested by the Assistant Secretary for Planning and Evaluation as
part of a broader effort to look at mainstream Federal programs addressing homeless
persons. This report is one of two related national reports on health care servces for
the homeless. A companion report addresses the extent that Federally- funded
Community Health Centers serve the homeless population.

We conducted our review in accordance with the €
                                                                   Quality Standard for Inspectins
issued by the President' s                 Council on Integrity and Effciency.
                                    FINDINGS€
 Community Mental Health Centers Perform Outreach to Homeless Persons€

 All centers with PATH and/or ACCESS grants report that they conduct outreach€
 sending staff or volunteers off-site to areas where homeless persons with mental ilness€
 may congregate. However , only 50 percent of those centers which did not receive any
 PATH or ACCESS funding report performing outreach. Nearly all of the centers
 staffs that conduct outreach go to emergency homeless shelters. Outreach staff visit
 and provide referrals at transitional shelters , street locations , soup kitchens , drop-
 centers , parks, depots , and campgrounds. Approximately one- fourth also may go to
 county jails , public libraries , river banks , psychiatric hospitals , churches , restaurants
and shopping malls.

The most frequent outreach activity is a mental health assessment. This is followed by
offering information on mental health servces available to shelter residents , providing
general health care services ,   providing food/clothing, and conducting mental health
training for shelter staff. Outreach services also cited by mental health centers include
referrals to public assistance entitlements , housing assistance , psychiatric referrals
                                                                                         , and
transportation to psychiatric or medical appointments.€

While our respondents reported a varied practice among community mental health€
centers in providing outreach , 32 percent of the centers conduct daily outreach and 10
percent conduct weekly outreach. Twenty- two      percent reported a variety of
responses: that they either perform outreach as needed , on a biweekly basis , or 2-
days per week.

Centers Adapt Screenig Protocols to Address Homelessness Issues

Nearly one- half   (48 percent) of the mental health centers surveyed report they have
adapted treatment and screening protocols to specifically meet the needs of homeless
persons with mental ilnesses. As part of this effort , emphasis is made to obtain the
homeless status during the initial intake process. For instance , over three-fourth' s (76
percent) of the centers indicated they identify the housing/omeless status of new
clients. Centers also perform comprehensive psychosocial assessments and discuss the€
housing status in the screening process.€

Of the centers reporting treatment recipient figures , nearly five percent of the mental
health user population were homeless. From survey data , centers present a picture of€


 For p urposes of this inspection , we defined outreach as: " an initial , continuing, and
persistent effort to establish a trusting relationship essential in engaging, connecting, or
reconnecting homeless individuals to needed health , mental health , social welfare, and
housing services.€
                          , "





 homeless persons with mental illness that they serve. Some of the more interesting
 factors of the homeless client are noted in percentage data:




Centers Receive Referral from a Varety of Sources



Although 21 percent of the centers ' homeless persons with mental ilnesses are seJf­
referrals , the majority of homeless clients are referred from emergency homeless
shelters , hospital emergency rooms , police , state psychiatric hospitals , and the jail/court
system. Whle 17 percent , or 15 shelters , indicated they do not refer to centers , the
majority (or 83%) of the homeless shelters surveyed said that they refer their clients to
the centers for mental health services.    In addition , the shelters also refer to hospital
emergency rooms , substance abuse counseling, homeless outreach counselors
psychiatric social workers , medical clinics , hospital inpatient/outpatient , volunteer
psychologists , and private psychologists and psychiatrists.

A Majority of Shelters Rate their Relationship with Communty Menta Health
Centers as Positive; Some Problems Do Emerge, However

Over two- thirds (69 percent) of the homeless shelters rate their relationship with the
local mental health center as either satisfactory or excellent. Only 13 percent report
poor working relationships. (Eighteen percent did not respond or indicated that it was
not applicable.



As a function of this relationship, two-thirds (67 percent) of the homeless shelter
respondents report they receive positive comments about good or excellent quality of
care from homeless persons with mental ilness that were referred to community
mental health centers. Homeless shelter directors said they receive a diversity of
comments from homeless people depending on the client's wilingness to receive help.
One shelter director said The comments are highly subjective and entirely anecdotal.
Many clients like their individual case workers but are frustrated by the slow
incremental changes in their lives. " A homeless shelter director noted
 (Clients)... appreciate the case management support.(They) feel that staff really care
about their needs/issues... (They) appreciate the opportunity to receive services in a
non- threatening setting. " Another director indicated that " Clients are grateful to
know they are not unique or strange... .Appreciate transportation.. (The program
is)... very effective in working through crisis and long- term depression.

However , 20 percent of homeless shelters believe that the quality of mental health
servces at the centers is unsatisfactory or poor. They cited: weakness in providing
immediate crisis intervention services when homeless people are most vulnerable and
wiling to accept help; not enough individual therapy       to address their problems;
shortage or lack of assignment of case managers and therapists; and clients being
given standard prescribed medication without really being listened to.

Other concerns enumerated by homeless shelter directors follow:

        Center appointments are given too many days ahead and the client may need
       immediate servce or may no longer be at the shelter on the appointment day.

        It takes too long to get an appointment... Clients cannot understand
       forms..... Clients cannot afford the sliding fee scale.....

        Clients do not understand why their cases are closed... Clients do not receive
       any follow-up servces once placed in housing.... Clients do not know where to
       go or who to ask for help when they start to decompensate.

Centers Provide Referral for Other Health        Cae and Social Servces

Most centers report providing referrals for health care servces. The main referral is
to detoxification or other substance abuse servces , followed by inpatient psychiatric
servces. Common referrals also include medical outpatient servces provided at such
locations as free health clinics and public health clinics. The least common referrals
are for dental servces at Community Health Centers , residential servces , emergency
room treatment and services , and medical inpatient treatment. Centers also provide
referrals for health care benefits/entitlements:€
Ninety- four percent of the centers link those who qualify with assistance administered
by the Social Security Administration. Centers also offer a full-range of other public
assistance referrals:

               88 percent offer Food Stamp referrals.€
               80 percent refer clients to the AFDC program.€
               70 percent refer clients to the WIC program , if applicable.€
               64 percent refer homeless persons with mental ilness to general€
               assistance.€
               24 percent refer to State disability, unemployment compensation
               housing agencies , legal assistance , and food banks.


Centers Cite Barers in Providig Servces to Homeless People , Especialy Difculties
in Contiuity of Cae and Avaiabilty of Servces in the Communty

Although 64 percent of community mental health centers conduct an outreach
program , centers report that they face barriers in trying to serve homeless persons
especially since many of those persons with mental ilness are also substance abusers.
Barriers include the clients ' inability or unwillngness to follow through on a plan of
care and their unwilingness to go to a mental health center for servces. Another
obstacle listed by many centers is the shortage of necessary servces for homeless
persons with mental ilness.

Over one- half (58 percent) of the homeless shelters reported that clients have
problems accessing the centers ' servces. Most of the items cited are well- known
obstacles among the homeless population: lack of affordable transportation; lack of
information about center servces; and an unwillngness to go to a center for mental
health servces.

Another problem identified by homeless shelters is that community mental health
centers often target their services to those most in need and may not accommodate
persons with mental health needs who are not among the most seriously impaired. In
addition , centers may find that one problem is that once the client's appointment day
arrives , homeless persons have often moved on to another location or shelter.

Also , homeless persons with mental ilness located in cities which share State or county
lines often find themselves positioned out of the appropriate center s jurisdiction or
service area. One shelter responded Ilinois residents cannot be seen in an Iowa
mental health center except for emergencies..... " The non-evening, non-weekend hours
of some centers were also noted to impact homeless persons with mental ilnesses.
OPPORTUNITIES FOR IMPROVEMENT

Overall , community mental health centers and homeless shelters seem to be
coordinating their efforts to help homeless people. However , there are stil
opportunities for improvement. We recognize that resources are limited and that not
all services that are needed can be provided within current funding levels. We offer
the following suggestions to centers wishing to re-examine and prioritize their
programs for serving homeless persons with mental ilness.

Improve Communcation and Inormation Sharg with Homeless Shelters

Communication and information sharing could take the form of periodic meetings to
discuss problem areas , beneficial activities , statistical reporting techniques , and the
joint monitoring of homeless persons with mental ilness. Centers which do not
engage in outreach activities could do        those centers which already do could
                                                 so;

develop even more assertive outreach programs.    Also community mental health
centers could work with homeless hotlines in their servce area to provide urgent care
or crisis intervention for those needing immediate attention.

At the Federal level , SAMSA could be instrumental in supporting further research
on the topic of homeless persons with mental ilness and their difficulties in obtaining
appropriate mental health care and counseling.

Offer Comprehensive Servces to Address Indidual         Needs

Counseling servces could be offered to specifically address individual needs. These
could include: substance abuse counseling (since many clients have a dual- diagnosis of
mental ilness and substance abuse) and physical and/or sexual abuse counseling.
Times for such sessions might need to be flexible to deal with the clientele
inconsistency in keeping appointments. In addition , counselors could pro actively work
with the homeless client , stressing the importance of continual therapy to achieve
progress.

Centers could provide more intensive case management to homeless persons with
mental ilnesses. These servces could be provided on an ongoing basis in order to
engage homeless persons with serious mental ilnesses into mental health services
obtain housing, entitlements and mainstream servces on their behalf, and help them
establish residential stability.

Centers could work with housing programs to develop a variety of housing options.
However , providing housing is not enough. Many homeless persons with mental ilness
need intensive , on-site support to maintain their residential stabilty. Centers could
provide supportive services to homeless individuals in their housing to help them
achieve that stability.
AGENCY COMMNT

We received formal comments from the Administrator of SAMHSA and the Assistant
Secretary for Planning and Evaluation. Both agreed with the findings in the report.
The Administrator of SAMHSA emphasized the need to work more closely with
shelters and housing providers and for more research on homeJessness and mental
ilness. Copies of the full text of their comments are included in Appendix A.
APPENDIX A
""""


         DEPARTMENT OF HEALTH & HUMA SERVICES                                      Public Health Service




                                                                                   Substance Abuse and Mental
                                                                                     Health Services Administration
                                                                                   Rockville MD 20857



                                                     JUL I 6 /99


       DATE:

       TO:           Inspector General , DHHS

       FROM:         Administrator , Substance Abuse and Mental Health Services Administration

       SUBJECT:      OIG Draft Report: "Community Mental Health Centers and Homeless Persons
                     OEI- 07-95- 00061


       Attached are the Substance Abuse and Mental Health Services Administration s comments on
       the subject Offce ofInspector General draft report. We appreciate the opportunity to review the
       report. We believe it provides valuable information about the extent to which Community
       Mental Health Centers serve homeless persons and look forward to receiving the final report.

       If you have any questions regarding these comments , please contact Nancy McGinness on 443-
       1155.




                                                          Nelba Chavez, Ph.
COMMENTS OF THE SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES
ADMINISTRA nON ON THE OFFICE OF INSPECTOR GENERAL DRAFT REPORT
 COMMUNITY MENTAL HEALTH CENTERS AND HOMELESS PERSONS
OEI- 07-95- 00061

Thank you for the opportunity to review and provide comments on the subject draft report. It is
responsive to our earlier concerns and recommendations. We were not surprised to lear that all
of the community mental health centers (CMHCs) in the study that received PATH or ACCESS
funding also provided outreach , while only fifty percent of those that did not receive this funding
provided outreach. Both the ACCESS and PATH programs have encouraged CMHCs to work
more aggressively with the homeless population.

We agree with the suggestions about the need for better communication between CMHCs and
shelters , more assertive outreach to people in the shelters , more intensive case management and
counseling for persons who are homeless and more housing resources. If the CMHCs are going
to have an impact on reducing homelessness , they wil need to work more closely with shelters
and housing providers.

We also agree that there is need for more research on homelessness and mental ilness     and that

the Substace Abuse and Mental Health Services Administration could be valuable in supporting
these knowledge development initiatives. The Center for Mental Health Services (CMHS) has
fuded a number of research and evaluation studies on homelessness. The McKinney Research
Demonstration Program , which was funded between 1990 and 1993 , examined the effectiveness
of different approaches to providing mental health treatment , housing, and related services to
homeless adults who have severe mental ilnesses. The Dual Diagnosis Treatment
Demonstration Program, funded jointly with the Center for Substance Abuse Treatment (CSAT)
between 1993 and 1995 , identified and evaluated integrated approaches to treating homeless
people with co-occuring mental ilnesses and substance use disorders. The ACCESS Program is
a 5 year demonstration program , initiated in 1993 , to identify effective strategies for creating
integrated service systems so that people who are homeless and mentally il will have inediate
access to mental health and substance abuse treatment , health care , housing and income supports
and entitltements. Finally, CMHS and CSAT will support in the fall of 1996 a new knowledge
development program to document homelessness prevention models for individuals with serious
mental ilnesses and/or substance use disorders. As the findings from these programs are
published , they are. providing importnt information regarding effective services and service
delivery to people who are homeless and mentally ill.
            DEPARTMENT OF HEALTH &. HUh\AN SERVICES                                   Office of (he SeCrelary




-.T€
h.."
                                                       JUL I 7 '996
                                                                                     Washington ,   D. C.   20201




   TO:           June Gibbs Brown
                 Inspector General

  FROM:          Assistant Secretary for Planning and Evaluation


   SUBJECT:      Comments on the OIG Draft Report: " Community Mental Health Centers and
                 Homeless Persons," OEI- 07- 95- 00061

   Thank you very much for the opportunity to review the above referenced report. Knowledge
   about the extent that community mental health centers (CMHCs) serve the homeless and how
   such servces can be improved is highly important.

   The report represents a major improvement over the Erst draft. We are pleased to see included in
   the report: people focused , rather than illness and homeless focused language used in describing
   the population; a definition of outreach; and the note that the survey questionnaire did not make
   distinction between persons with serious mental ilness and those who do not have a serious
   mental ilness. Most importantJy, we were pleased to see the analysis of the outreach data by
   looking at centers ' receipt of Projects for Assistance in Transition from Homelessness (pATH)
   or Access to Community Care and Effective Services and Supports (ACCESS) funding. As a
   result of the inclusion of the PATH and ACCESS analysis we are better able to see that both the
   ACCESS and PATH programs have encouraged CMHCs to work more aggressively with the
   homeless population.

   We appreciate this opportunity to review this draft GIG report. We believe it provides valuable
   information about the extent to which CMHCs serve homeless persons and look forward to
   receiving the final report.
